     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103



September 20, 2011

Report Number: A-09-10-02046

Ms. Gay Ann Williams
Vice President, Legislative & Regulatory Compliance
Health Net, Inc.
21650 Oxnard Street
Woodland Hills, CA 91367

Dear Ms. Williams:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Part D Prescription Drug Event Data
for Schedule II Drugs at Health Net, Inc. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call
me, or contact Shon Dormoy, Audit Manager, at (415) 437-8360 or through email at
Shon.Dormoy@oig.hhs.gov. Please refer to report number A-09-10-02046 in all
correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Gay Ann Williams


Direct Reply to HHS Action Official:

Mr. Timothy B. Hill
Deputy Director
Center for Drug and Health Plan Choice
Centers for Medicare & Medicaid Services
Mail Stop C5-19-16
7500 Security Boulevard
Baltimore, Maryland 21244-1850
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




 REVIEW OF MEDICARE PART D
PRESCRIPTION DRUG EVENT DATA
  FOR SCHEDULE II DRUGS AT
      HEALTH NET, INC.




                       Daniel R. Levinson
                        Inspector General

                        September 2011
                         A-09-10-02046
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug program. Under Part D, which began January 1, 2006, individuals entitled to
benefits under Part A or enrolled in Part B may obtain drug coverage.

The Centers for Medicare & Medicaid Services (CMS), which administers the Part D program,
contracts with private entities called Part D sponsors that act as payers and insurers for
prescription drug benefits. A Part D sponsor may contract with a pharmacy benefits manager
(PBM) to manage or administer the prescription drug benefit on the sponsor’s behalf. Pursuant
to 42 CFR § 423.505(i), the sponsor maintains ultimate responsibility for complying with its
contract with CMS, which includes compliance with all Federal laws, regulations, and guidance.

Pursuant to sections 1860D-15(c)(1)(C) and (d)(2) of the Act and 42 CFR § 423.322, sponsors
must submit the information necessary for CMS to carry out Part D payment provisions and
program integrity activities. For every prescription filled, the Part D sponsor or its PBM
prepares a Prescription Drug Event (PDE) record and submits it to CMS. Certain fields in the
PDE record are completed using information provided by the pharmacy responsible for filling
the prescriptions. The PDE record, which is a summary record of individual drug claim
transactions at the pharmacy, enables CMS to make payment to the sponsor and otherwise
administer the Part D benefit. Pursuant to 42 CFR § 423.505(k), the sponsor must provide
certification as to the accuracy, completion, and truthfulness of the claims data submitted for
payment purposes.
The Controlled Substances Act established five schedules based on the medical use acceptance
and the potential for abuse of the substance or drug. Schedule II drugs have a high potential for
abuse, have an accepted medical use (with severe restrictions), and may cause severe
psychological or physical dependence if abused. Pursuant to 21 CFR § 1306.12(a), Schedule II
prescription drugs may not be refilled. However, 21 CFR § 1306.13(b) provides that Schedule II
drugs for patients residing in a long-term-care facility and for the terminally ill may be partially
filled as long as the total quantity dispensed does not exceed the total quantity prescribed. Under
this provision, Schedule II prescriptions for these patients are valid for a period not to exceed
60 days from the issue date. In addition, pursuant to 21 CFR § 1306.11, Schedule II drugs may
not be dispensed without a practitioner’s written prescription.

As a Part D sponsor, Health Net, Inc. (Health Net), provided prescription drug coverage to over
126,000 beneficiaries and submitted to CMS over 1.2 million PDE records for Schedule II drugs
for dates of service from January 1, 2008, through June 30, 2010.

OBJECTIVE

Our objective was to determine whether Health Net had adequate controls to (1) prevent refills
and unallowable partial fills of Schedule II drugs and (2) ensure the accuracy of certain fields in
the PDE records submitted for Schedule II drugs.


                                                 i
SUMMARY OF FINDINGS

Health Net did not have adequate controls to (1) prevent refills and unallowable partial fills of
Schedule II drugs and (2) ensure the accuracy of certain fields in the PDE records submitted for
Schedule II drugs as required by Federal regulations. Of 49 judgmentally selected PDE records,
7 records represented unallowable partial fills. (There were no refills.) In addition, of
67 judgmentally selected PDE records (which included the 49 records reviewed for refills and
partial fills), 32 records contained inaccurate data when compared with the supporting
documentation at the pharmacies.

The claims processing system had no edits to identify refills and unallowable partial fills by
pharmacies to prevent submission of PDE records related to those prescriptions nor did it have
edits to ensure the accuracy of certain fields in the PDE records. In addition, Health Net has not
provided to pharmacies any guidance clarifying Federal requirements related to refills and partial
fills of Schedule II drugs or adequate guidance on submitting accurate claim information for
Schedule II drugs.

RECOMMENDATIONS

We recommend that Health Net:

   •   strengthen its controls to (1) prevent refills and unallowable partial fills of Schedule II
       drugs and (2) ensure the accuracy of submitted PDE records and

   •   issue guidance to its pharmacies clarifying Federal requirements related to (1) refills and
       partial fills of Schedule II drugs and (2) submission of accurate claim information for
       Schedule II drugs.

HEALTH NET COMMENTS

In its written comments on our draft report, Health Net responded to our two recommendations.
Regarding our first recommendation, Health Net agreed to enhance its retrospective audit
practices to ensure that appropriate samples of claims for Schedule II drugs are included in all
audits. Health Net concurred with our second recommendation and provided information on
actions that it planned to take to address our recommendation. Health Net’s comments are
included in their entirety as the Appendix.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND ......................................................................................................1
              Medicare Part D .............................................................................................1
              Prescription Drug Event Data ........................................................................1
              Controlled Substances ....................................................................................1
              Health Net, Inc., and CVS Caremark Part D Services, LLC .........................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................3
               Objective ........................................................................................................3
               Scope .............................................................................................................3
               Methodology ..................................................................................................3

FINDINGS AND RECOMMENDATIONS ......................................................................4

          FEDERAL REQUIREMENTS ..................................................................................4
               Federal Regulations for Schedule II Drugs ....................................................4
               Federal Regulations and Guidance for Sponsors ..........................................5

          REFILLS AND UNALLOWABLE PARTIAL FILLS .............................................5

          INACCURATE PRESCRIPTION DRUG EVENT DATA ......................................5

          INADEQUATE CONTROLS ...................................................................................6

          CONCLUSION ..........................................................................................................6

          RECOMMENDATIONS ...........................................................................................7

          HEALTH NET COMMENTS ...................................................................................7

APPENDIX

          HEALTH NET COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

Medicare Part D

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug program. Under Part D, which began January 1, 2006, individuals entitled to
benefits under Part A or enrolled in Part B may obtain drug coverage.

The Centers for Medicare & Medicaid Services (CMS), which administers the Part D program,
contracts with private entities called Part D sponsors that act as payers and insurers for
prescription drug benefits. Sponsors may offer prescription drug benefits through a standalone
prescription drug plan or as part of a managed care plan, known as a Medicare Advantage
Prescription Drug Plan.

A Part D sponsor may contract with a pharmacy benefits manager (PBM) to manage or
administer the prescription drug benefit on the sponsor’s behalf. PBM responsibilities vary, but
include services such as processing and paying prescription drug claims, contracting with
pharmacies, and negotiating rebates with drug manufacturers. Pursuant to 42 CFR § 423.505(i),
the sponsor maintains ultimate responsibility for complying with its contracts with CMS, which
includes compliance with all Federal laws, regulations, and guidance.

Prescription Drug Event Data

Pursuant to sections 1860D-15(c)(1)(C) and (d)(2) of the Act and 42 CFR § 423.322, sponsors
must submit the information necessary for CMS to carry out Part D payment provisions and
program integrity activities. For every prescription filled, the Part D sponsor or its PBM
prepares a Prescription Drug Event (PDE) record and submits it to CMS. The PDE record,
which is a summary record of individual drug claim transactions at the pharmacy, enables CMS
to make payment to the sponsor and otherwise administer the Part D benefit. Pursuant to
42 CFR § 423.505(k), the sponsor must provide certification as to the accuracy, completion, and
truthfulness of the claims data submitted for payment purposes.
A Part D sponsor, or its PBM, completes certain fields in the PDE record using information
provided by the pharmacy responsible for filling the prescription. A PDE record contains fields
that identify (1) the sponsor, beneficiary, physician, pharmacy, drug, prescription reference
number, and fill number; (2) the dates that the prescription was filled and the PDE record was
processed; (3) the prescription drug cost and other payment information; and (4) physician’s
instructions on whether generic drugs may be dispensed.

Controlled Substances

The Controlled Substances Act (CSA), 21 U.S.C. §§ 801–971, established five schedules based
on the medical use acceptance and the potential for abuse of the substance or drug. Schedule I,


                                               1
which includes drugs or substances that have no currently accepted medical use and a high
potential for abuse, is the most restrictive, and Schedule V is the least restrictive.

Schedule II drugs have a high potential for abuse, have an accepted medical use in treatment in
the United States or an accepted medical use with severe restrictions, and may cause severe
psychological or physical dependence if abused (21 U.S.C. § 812(b)(2)). Except in emergency
situations or when dispensed directly by a practitioner other than a pharmacist to the ultimate
user, Schedule II drugs may not be dispensed without a practitioner’s written prescription
(21 CFR § 1306.11). Schedule II drugs include drugs such as oxycodone and morphine.

Pursuant to 21 CFR § 1306.12(a), Schedule II prescription drugs may not be refilled. However,
21 CFR § 1306.13(b) provides that Schedule II drugs for patients residing in a long-term-care
facility and for the terminally ill may be partially filled as long as the total quantity dispensed
does not exceed the total quantity prescribed. 1 Under this provision, Schedule II prescriptions
for these patients are valid for a period not to exceed 60 days from the issue date.

Health Net, Inc., and CVS Caremark Part D Services, LLC

As a Part D sponsor, Health Net, Inc. (Health Net), provided prescription drug coverage to over
126,000 beneficiaries and submitted to CMS over 1.2 million PDE records for Schedule II drugs
for dates of service from January 1, 2008, through June 30, 2010. For these PDE records,
pharmacies were paid approximately $178 million. 2 Health Net contracted with CVS Caremark
Part D Services, LLC (Caremark), to provide PBM services beginning January 2008, including
claims processing and adjudication, as well as preparation and submission of PDE records.
Health Net maintained its own contracts with pharmacies until March 2009, when it switched to
Caremark’s pharmacy network.

As Health Net’s PBM, Caremark processed prescription claims from pharmacies for each drug
dispensing event. Caremark used its claims software to process prescription claims at the point
of sale, which included implementing a series of edits and calculating certain data elements.
Caremark used these data elements, as well as other Part D data, to create the PDE records.
Caremark submitted the PDE records to CMS weekly. Caremark also performed audits of the
data received from pharmacies. Health Net maintained an oversight role in Caremark’s PBM
processes.




1
  The CSA has an exception to the written prescription requirement for Schedule II drug prescriptions written for
residents of long-term-care facilities. A prescription received by fax may serve as the original prescription.
2
  The amount paid to the pharmacies is on behalf of the sponsor, beneficiaries, and third parties. The $178 million
includes the amounts paid for original submissions of PDE records as well as any subsequent adjustments.

                                                          2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Health Net had adequate controls to (1) prevent refills
and unallowable partial fills of Schedule II drugs and (2) ensure the accuracy of certain fields in
the PDE records submitted for Schedule II drugs.

Scope

We limited our review to 1,167,889 PDE records for dates of service from January 1, 2008,
through June 30, 2010, representing $161,423,861 paid for Schedule II drugs under Health Net’s
one standalone prescription drug plan. We excluded from our review PDE records that were
(1) for noncovered Part D drugs under the prescription drug plan, (2) deleted, (3) plan-to-plan
reconciliations, (4) subsequently adjusted, or (5) submitted in a nonstandard format.

We limited our review of internal controls to gaining an understanding of how Health Net
maintained and monitored PDE records for Schedule II drugs and oversaw pharmacies’ claiming
of these drugs. We did not review the completeness of the PDE records; we limited our review
to the fields in the PDE records that contained data provided by the pharmacies responsible for
filling the prescriptions.

We conducted our audit from November 2010 to August 2011 and performed fieldwork at
Health Net’s office in Rancho Cordova, California, and at selected pharmacies.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    interviewed CMS officials about the Federal requirements related to Schedule II drugs;

   •    reviewed Health Net’s contract with CMS regarding its roles and responsibilities as a
        Part D sponsor;

   •    reviewed Health Net’s contract with Caremark regarding pharmacy contracting and
        processing of pharmacy claims;

   •    interviewed Health Net officials regarding their monitoring and oversight of PDE data;

   •    obtained Health Net’s PDE records for Schedule II drugs for dates of service from
        January 1, 2008, through June 30, 2010 (processed by CMS through September 2010);




                                                 3
   •   analyzed the PDE records by beneficiary, prescription reference number, and fill number
       to determine that 55,454 PDE records represented potential refills and/or potential
       unallowable partial fills;

   •   selected a judgmental sample of 49 PDE records and reviewed the supporting
       documentation at the pharmacies that submitted those claims to identify refills and
       unallowable partial fills;

   •   selected a judgmental sample of 67 PDE records (which included the 49 PDE records
       reviewed for refills and partial fills) and reviewed the supporting documentation at the
       pharmacies that submitted those claims to determine the accuracy of certain fields in the
       PDE records; and

   •   shared the results of our audit with Health Net officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Health Net did not have adequate controls to (1) prevent refills and unallowable partial fills of
Schedule II drugs and (2) ensure the accuracy of certain fields in the PDE records submitted for
Schedule II drugs as required by Federal regulations. Of 49 judgmentally selected PDE records,
7 records represented unallowable partial fills. (There were no refills.) In addition, of
67 judgmentally selected PDE records (which included the 49 records reviewed for refills and
partial fills), 32 records contained inaccurate data when compared with the supporting
documentation at the pharmacies.

The claims processing system had no edits to identify refills and unallowable partial fills by
pharmacies to prevent submission of PDE records related to those prescriptions nor did it have
edits to ensure the accuracy of certain fields in the PDE records. In addition, Health Net has not
provided to pharmacies any guidance clarifying Federal requirements related to refills and partial
fills of Schedule II drugs or adequate guidance on submitting accurate claim information for
Schedule II drugs.

FEDERAL REQUIREMENTS

Federal Regulations for Schedule II Drugs

Pursuant to Federal regulations (21 CFR § 1306.12(a)), Schedule II prescription drugs may not
be refilled. A separate prescription is required if a physician wishes to authorize continuation of
a patient’s use of a Schedule II drug beyond the amount specified on the first prescription.
However, Federal regulations (21 CFR § 1306.13(b)) allow for a prescription for a Schedule II

                                                 4
drug written for a patient in a long-term-care facility or for a patient with a medical diagnosis
documenting a terminal illness to be filled in partial quantities to include individual dosage units.
Under this provision, a Schedule II drug may be partially filled as long as the total quantity
dispensed does not exceed the total quantity prescribed. The prescription is valid for a period not
to exceed 60 days from the issue date. 3

Pursuant to 21 CFR § 1306.11, except in emergency situations or when dispensed directly by a
practitioner other than a pharmacist to the ultimate user, Schedule II drugs may not be dispensed
without a practitioner’s written prescription.

Federal Regulations and Guidance for Sponsors

Pursuant to 42 CFR § 423.505(k), the sponsor must provide certification as to the accuracy,
completion, and truthfulness of the claims data submitted. For every individual drug claim
transaction at the pharmacy, the Part D sponsor or its PBM prepares a PDE record.

Notwithstanding any relationship that the sponsor may have with related entities, contractors, or
subcontractors, the sponsor maintains ultimate responsibility for complying with its contracts
with CMS, which includes compliance with all Federal laws, regulations, and CMS instructions
(42 CFR § 423.505(i)). In addition, CMS’s Prescription Drug Benefit Manual, Chapter 9,
section 50.2.6.3.1, recommends that the sponsor have systems capability to establish edits and
use edits to automatically deny claims or suspend payments on claims when appropriate.
REFILLS AND UNALLOWABLE PARTIAL FILLS

Of 49 judgmentally selected PDE records, 7 records represented unallowable partial fills of
Schedule II drugs. (There were no refills.)

    •    For three PDE records, the drug was dispensed to a beneficiary who was neither a patient
         in a long-term-care facility nor a patient with a medical diagnosis documenting a terminal
         illness.

    •    For three PDE records, the drug was dispensed more than 60 days after the issue date of
         the prescription.

    •    For one PDE record, the drug was dispensed without a practitioner’s written prescription.

INACCURATE PRESCRIPTION DRUG EVENT DATA

Of 67 judgmentally selected PDE records (which included the 49 records reviewed for refills and
partial fills), 32 records contained inaccurate data. We considered data to be inaccurate when


3
  Federal regulations (21 CFR § 1306.13(a)) also permit the partial filling of a prescription for a Schedule II drug if
the pharmacist is unable to supply the full quantity prescribed. The remaining portion of the prescription may be
filled within 72 hours of the first partial filling; however, if the remaining portion is not or cannot be filled within
the 72-hour period, the pharmacist may not dispense any further quantity without a new prescription.

                                                            5
certain fields in the PDE records did not match the supporting documentation that we reviewed
at the pharmacies. The 32 PDE records contained the following inaccurate data: 4

       •   The drug quantity dispensed did not match the quantity that was actually dispensed by the
           pharmacy.

       •   The days supply of the drug did not match the days supply of the drug actually dispensed
           by the pharmacy based on the prescriber’s directions for use written on the prescription.

       •   The dispense as written code indicating the prescriber’s instructions regarding generic
           substitution did not match the prescriber’s instructions on the prescription maintained at
           the pharmacy.

       •   The prescriber identifier did not match the prescriber information on the prescription
           maintained at the pharmacy.

       •   The fill number did not match the number of refills or partial fills associated with the
           prescription as shown in the documentation maintained at the pharmacy.

       •   The prescription origin code did not match the type of prescription that was presented at
           the pharmacy (i.e., written, telephone, electronic, or fax).

       •   The prescription reference number did not match the reference number assigned to the
           prescription by the pharmacy.

INADEQUATE CONTROLS

Health Net stated that Caremark’s monitoring efforts included the use of edits in its claims
processing system to prevent payment for duplicate claims and to identify claims that had been
resubmitted, adjusted, or deleted. However, there were no edits to identify refills and
unallowable partial fills by pharmacies. In addition, Caremark’s edits did not ensure the
accuracy of certain fields in the PDE records based on information provided by the pharmacies.

Health Net also stated that Caremark sends correspondence to its network pharmacies on
operational and procedural issues related to claims processing. However, Health Net has not
provided to pharmacies any guidance clarifying Federal requirements related to refills and partial
fills of Schedule II drugs or adequate guidance on submitting accurate claim information for
Schedule II drugs.

CONCLUSION

Schedule II drugs have a high potential for abuse. Therefore, adequate controls to prevent refills
and unallowable partial fills, while ensuring that an adequate and uninterrupted supply is
available for legitimate medical needs, is a valuable program integrity safeguard. In addition,

4
    All 32 PDE records had at least one of the types of inaccurate data shown.

                                                            6
adequate controls to ensure the accuracy of data in submitted PDE records is essential to
program integrity. Without adequate controls, Part D sponsors cannot properly oversee the
dispensing and monitoring of Schedule II drugs.

RECOMMENDATIONS

We recommend that Health Net:

   •   strengthen its controls to (1) prevent refills and unallowable partial fills of Schedule II
       drugs and (2) ensure the accuracy of submitted PDE records and

   •   issue guidance to its pharmacies clarifying Federal requirements related to (1) refills and
       partial fills of Schedule II drugs and (2) submission of accurate claim information for
       Schedule II drugs.

HEALTH NET COMMENTS

In its written comments on our draft report, Health Net responded to our two recommendations:

   •   Regarding our first recommendation, Health Net agreed to enhance its retrospective audit
       practices to ensure that appropriate samples of claims for Schedule II drugs, especially
       those with refills, are included in all audits. Health Net stated that system edits are not
       available at the point-of-sale to regulate the issues identified in our findings.

   •   Health Net concurred with our second recommendation and provided information on
       actions that it planned to take to address our recommendation. Health Net stated that
       communication from a single Part D sponsor will have little impact on pharmacy practice
       and suggested that a much more effective approach would be to engage State and Federal
       agencies, such as State Boards of Pharmacy and the U.S. Department of Justice.

Health Net’s comments are included in their entirety as the Appendix.




                                                 7
APPENDIX
                                                                                                     Page 1 of 5



                   APPENDIX: HEALTH NET COMMENTS




       Healt h Net'

 Seplember7, 2011


Lori A Ahlstrand
R egionallnspeclor General for Audil Servicl"JI
D epartment of Health rmd Human Sc.rvice.
O ffice of In~P<'.clor Generlll
9 0 - 7 1h Street, Suite 3-650
S an Franci&co, ell 94103

Re:     Draft Report - "Rcwiew 0/ Medicare Part D PrB$cription Drug F.,venl Dotalol'
        Schedule II Dnlgs at HeullhNel, In c.• fOT the P6riod Of Jan/wry 1. 2008, tllroll8"
            30, 2010,"
        lllllB
        Reprm Number A-09-10-02046

D ear Ms. Ahbtrand,

T hank you for the opportunity to review and respond to the draft DIG report entitled "Review
o !MtuJicure Pan D Prescripllon Drug Event Data/or Schedule 11 Drugl at Healtll loltl(, Inc"
J anhe Period of Jan uary 1, 2008, Through JUli e 30, 2010."

W hile we share the 010'3 concerns around ensuring proper controls are in pie.ce wh~n
dispensing Schedule n drugs, we do have some concerns with the com;luslons and
r ecommcndalions contained within the draft report.

T he ~port concludes Ihal "Health Net did not have adequate cOlltrols to (I) prevent reflll& 9J'ld
unal lowable partial fills of Sch.cdule IT UrugllllIld (2) ensure the aCCuracy of cenain field~ In
The PDE records submitted for Schedule n drugs as required by Feder.lll rcguilltions," The&e
c onclusions were based upon findings d::velopcd 3S Aresult of reviewing documenllltion
Il\'OilllbJc at the network phnrmocy that ianllt It vailablt: for review or action within the
electronic polnt-of-sale transaction model that supports our indw;try.

T he eummt industry model, utillzina NCPDP data standards, does not allow Hcalth ).let (or
a ny other I'an D ilponsor) to implement system edits to prevent the findings described in the
re port, ""ith one exceptiOI\. The vast majority of issues can only be discovered when II
Tt"!t1'Of>pective review/audit of docUmel1lllltion retained at the d i ~pensing pharmacy is
c onducted. As Bms ult, we believe the appropriate £esJ)onse is a re-examination of our "on-
                                                                                                    Page 2 of 5





   le" and "de~ktop" audit functions. This re-exruwmttion will ensure that appropriate
 slImples of claims for Sch~\l le D drugs are reviewed for Bupporting documentation, refill
 hJ:>tory, IUld other issues identified in thh re pon.

 To reduce the PrQbability that these issues occur, He.e..hh Net agrees that it would be
 beneficial to develop and distribute a phannucy commUrtlcation reminding pl'wmacics of the
 Federal Requirements related to (I ) refills and pani"1 fills of Schedule II drugs and (2)
 8ubmission of acCUfftte ehum information for Schedule II drugs. We would like to suggest,
 however. that this communicl\tiun from 11 single Part D sponior will have lillie impuct on
 pharmacy practice. A much more effective npprollCh would be to engage the reli~tive Stllte
 Boards of Pharmacy, the U.S . Department of Justice's DnJ£!; Enforcement Division, or the
 010. We believe that communications and reminders from these sources will have a much
 hiiher potcntiiillo effectuate a change in Schedule II dispensing practices,

 Plcase see a more detailed di!IC~~ion of each   ora Findinc: and RecommcmlatiOIJ in the
 attach~d pa8el.


Again, thank you for this opportunity to review the draft report. Health Net appreciates the
effort put into revicwing these issues, and undcrlltltm.!.s and supports [he OIG's effo"s to help
reduce waste, abuse, I1nd mismana8ement.

If you have any question5 regarding, tillS re~ponse, please call me at (818) 676.1168 1,


Sincerely,   '


i.~t!f!:!::;ice        President
Medicare COinplianee Officer
Health Net, Inc.

Cc: Jay Gellert, President DnC! CEO
    Patricia Clarey, Senior Vice President
    John Sivori,Prcsicient, Heahh Net Pharmacy Services
                                                                                                        Page 3 of 5





           Finding:

Health Net did not tw.ve adequate controi § to prevent refilb and unallowable partial fill9 nf
Schedule II drugs.

Of 49 judgmcntaJly selected PDE recordlS, 7 records represented unallowable partial fills of
Schedule II drugs. (There were no refills.)

       •    For Three PDE re.::orlh, the drui: W8.9 dlspensed to a beneficiary who was neither a
            patient in II 101\£-~enn-cate facility nor a pmient with a medical dia~osj,
            documentin1,: a tt!mtinal illness.
    •       Fur ~ PDErecordil, the drug WII$ dispensed 1n0Te than 60 da)'s after the issue date
            of the pre~criplion.
    •       For one PDE record, the drug was dispensed without a practittoller'a written
            pcc&eription.

OIG Reconlntfndaliun:

Heruth Net should lItrensthen its contro l!> to prevent refi lls and um\llowabJe partiw fills of
Schedule II drugs.

Health Net Re<lporue:

As discussed above, the majority of these Issues can only be discovered in a retrospective
wdil. Accordingly, Health Net agrees to enhance our retrospective audit practictls to en,ure
appropriate samples of c\lllms for Schedule n drues, especiKlly lhose with refilla, are
lnclude(i in all audits. In additIon, the i~sue.!l identified above will be included in eoch
Schedule II dtu, cla.i.m roviewed in the lIudi t.

   •       Health Net is not aware of a patient' s diagnosis from thc claim as submitted, so
           cannot confum that a patient is t:nninlllly ill in II pOint-or-sale trAnsaction. Refills
           could be blocked at all no n-LTC phurmacies pend ing confi11Il.ation or a diagnosed
           terminal illness, but we believe this could ~8ult in preventing acCC3S lQ seryiCC5 for a
           vulnerable population.
   •       Because Ihe "iuuc date" of a prescription is includrd on pharmacy claims submitted
           to Health Net, an edit could be bUilt and i mplemented to .reject Clo.illl~ for !ccondary
           partial fills of Schedule IT drug, that occur mOre than 60 days frol1lme iI.sue dsle .
           Unfortunately, current ~CPDP data standards do not n:quire this field to be included
           in the electronic claim submitted to a Plan and, consequently, tile- industry does nor
           have an effective system edit Ilv.e.i lAble today that could reJeCT these claims. However,
           the next release of the NCPDP itandard (effective Jan 1,2012) will require the "date
           written" n c ld Health Net recognizes thii as an opportunity for increased compllQ1Jcc.
           but sUiiesls that thh issue needs to be udclreucd at the Industry level. eMS
           Involvement, hy requiring all plans to develop and implement this ~d.it, would be an
           effective tool to eltpand and reinforce ~OnlplilUlCe.
                                                                                                         Page 4 of 5





   IG Ji'lndlog:

 Hea.lth Nel did not have adequate oontrols to ensure the accuracy of certain fields in the POE
 records su.bmitted for Schedule II drugii IlS required by Federal regulations.

 Of 67 judgmentAlly Rl!lecled PDE records (which included the 19 record:! reviewed for refills
 and partial fills). 32 records contained inaccurate data. We comidered data to he inaccumle
 wben certain fieJds In the POE records did not match the supportin.z documentation that we
 reviewed at the phannru::ies. The 32 rDE records contained Ihe following inaccUJ'llt.c datil:

    •   The drug quantity dispe nsoo did not match the qUllntity Ihat was actually dispensed
         by the phannacy.
    •   The days supply of the dIllg did not motch rhe days supply of the drug actually
        dispen.sed by the phurmpey based on the prescriber's directions for use written on the
        prescription.
    •   The dlspense 6S written code indlcating the pre!lcribcr's instruction!!. 1'Cl8Br(linl: generic
        substitution did not match the pt1:scriber'51 iUitructions on th~ prescription rnwnlained
        at the pharmacy.
    •   The Pf~criOOI identifier did not march the pre~ber Information on the prescription
        maintained at the pll!urnacy.
    •   The fill number did not match the nu mber of refills or partill.lliliB a&liocillted w:lth the
        prescription as shown in the documentation maintained at the pharmacy.
    •   The prescription origi n code diu nul match the type of preacription that WAS presented
        at the pharmacy (i.e., written . telephooe, electronic, or fax).
    •   The prescription number did not mau:h the refere nce number assigned to the
        prescription by tho pharmacy.

OrG lh-l.'()mm~ndHtlon :

Health Net should , trcnsthen its controls to ensure a~curacy of s ubmitted PDE records.

Health Net Response:

System edits are not aVailable to regulate the issues indt:ntifi t!d abo\'e ar the point-or-sale.
The findings listed above cao onl y be discovered and addressed in a retrospoctive audit of
documentation retained at the dhpcnsina: phannacy. As II result, Health Net agrees to
enhance OUI rcuospcclivc audit practices to ensure ll{lProprinlc samples of claimll for
Schedule II drugs are includod In aJiaudits. The iS8ues Identified above \\111 be routi ncly
included in each Schedule n dro~ chum rcviewed in thc audit,
                                                                                                   Page 5 of 5





      .,lndlng:

Health N~t also stated that Cw-em8rk sends cOJTe.!ipondenc~ to its n~twork: pharmacies OD
opcrntional and procedural issues related to clailll8 processing. However, Health Net has not
pmvirlerl to pharmacies any guidance clarifyine Pedentl requirernentt; re lated to refiUli ond
panial fills of Schedule II drugs or adequate guidance on submitting accurate claim
lofonnatioll for Schedule n drv.~,

OIG Reoommeudatiolll

Issue guidant.~ LO its phrumacies clarlf)'lng Federal requiremenu related to (I) reflll& and
panlal fllla of Schedule II drugs and (2) submission of accurate claim informatio'1 fOI
Schedule II druga

Health Net Response:

He81th Net concurs and will develop and d.illtribute II pharmacy COllllllurucatlOn reminding
phllrmlldCli o f lhc Fedcm1 Requirements related to (1) refills and partial tills of Schedule II
drugs and (2) aubmiuion of accurale claim infonnation for Schedule IT drugs.

We would suggest, however, that fuis communication from a single Pan D sponsor will hllve
little impact on pharmacy practice. A much mote effectiv!;: appro~ch would be to ~ngage the
respective State B oards of Pharmllcy, the u.s. D epartment of Justice's Drui Enforcement
Division, or the 010. The ultimate responsibility for ensuring the accuracy of prescription
written for a Schedule II dtua rt:;tli with the licemed dispensing phannaeist, He/she jg the
gate keeper at the point-of-servlce and it it! hislher respom.ibility to ensure Ihe Schedule II
prcscri:ption is valid under Siote ond rederaL laws prior to dispensing. We believe the most
effective way 10 inc ["Case compIiOIlce is to direct communication and training 10 lh~e
individual!. We al50 believc that tho~e communications Wld re mindcrs will have more
impact wh!;:[1 dislributed by the 50urces lisled above,
